               AUDIT REPORT
                   12-16




Operational Enhancements Could Further Improve
        the Congressional Billing Process

              September 21, 2012
Date
September 21, 2012
To
Chief Financial Officer
Managing Director, Official Journals of Government
From
Inspector General
Subject
Audit Report - Operational Enhancements Could Further Improve the Congressional
Billing Process
Report Number 12-16

Enclosed please find the subject final report. Please refer to the “Results in Brief” for the
overall audit results. Our evaluation of your response has been incorporated into the
body of the report and the response is included in its entirety at Appendix G.

We consider management’s comments responsive to all of the recommendations. The
recommendations are resolved and will remain open pending our verification of the
completion of the agreed upon actions.

We appreciate the courtesies extended to the audit staff. If you have any questions or
comments about this report, please do not hesitate to contact me at (202) 512-0039.



Michael A. Raponi
Inspector General

Enclosure

cc:
Acting Public Printer
Assistant Public Printer, Operations
General Counsel
Chief Communications Officer
Contents

Introduction .............................................................................................................1

Results in Brief ........................................................................................................2

Background .............................................................................................................6

Results and Recommendations ..............................................................................10

Appendix A – Objectives, Scope, and Methodology................................................23

Appendix B – Billing Charges for Congressional Hearings
November 2005 to March 2008 ...............................................................................25

Appendix C – Billing Charges for Congressional Hearings
April and July 2011 ..................................................................................................27

Appendix D – Billing Charges for Congressional Hearings
October through December 2011 ............................................................................29

Appendix E – Unbilled Charges for Pre-Press Printing
May 2009 through April 2012 .................................................................................30

Appendix F – Acronyms Used in the Report ...........................................................31

Appendix G – Management’s Response ................................................................32

Appendix H - Status of Recommendations..............................................................33

Appendix I - Report Distribution ..............................................................................34

Major Contributors ...................................................................................................35
                           Office of Inspector General


      Report Number 12-16                                          September 21, 2012


            Operational Enhancements Could Further Improve
                    the Congressional Billing Process

Introduction

In March 2012, the House of Representatives Committee on Foreign Affairs (known as
the Committee on International Relations from 1995 until 2007) contacted the House of
Representatives Committee on House Administration about a perceived pattern of
inaccurate billing charges to the Congressional Printing and Binding (CP&B)
appropriation for congressional products. Work performed for Congress is funded
through the annual appropriation for CP&B. The CP&B is appropriated annually for
authorized printing and binding required for the use of Congress, and for the printing,
binding, and distribution of Government publications authorized by law to be distributed
without charge to the recipient. Individual congressional committees are not directly
charged nor do they directly pay for printing and binding services.

The Committee on Foreign Affairs questioned a report of billing charges associated with
24 jackets (sometimes referred to as work orders) from November 2005 to March 2008
for congressional hearings. The Committee also questioned billing charges associated
with 30 jackets billed in April and July 2011 for congressional hearings. It reported
instances when billed for the same jackets twice, overcharging by using an incorrect
number of billable pages, incorrectly charging the page rate rather than a flat rate, and
billing for work associated with another congressional committee.

The Committee on Foreign Affairs concerns were reported to the House of
Representatives Committee on House Administration, which is charged with the
oversight of the day-to-day operations of the House of Representatives.
Responsibilities also include identifying and reducing wasteful spending within House
operations and establishing best practices that will help improve services to the House.

Based on the cited concerns, the Committee on House Administration requested that
the Office of Inspector General (OIG) determine whether GPO properly billed the CP&B
appropriation for congressional products delivered to the Committee on Foreign Affairs
and whether opportunities exist that would enhance controls over billing charges.

In June 2012, we received additional information concerning incomplete billing charges
associated with pre-press printing (letterheads and envelopes). We incorporated a
review of these billing charges into our audit. Pre-press costs are incurred when a
customer sends GPO a file that needs to be manipulated to make the file ready for
printing. For example, pre-press work could include revising the user-supplied typeface.


                                            1
At GPO, the Office of Congressional Publishing Services, Plant Operations, and the
Office of Finance and Administration each play an interdependent role in processing
requests, producing products, and billing charges for services provided to Congress.
GPO reported billing the appropriation approximately $3.45 million from fiscal year (FY)
2006 through the end of FY 2011 for the Committee on Foreign Affairs products.

This audit was conducted to answer the following question: “Do opportunities exist to
enhance controls over the accuracy of billing charges for congressional products?”

To accomplish our audit objective, we conducted interviews along with a judgmental
sample of 77 jackets consisting of all the billing charges identified by the Committee on
Foreign Affairs and all of the completed products delivered to the Committee on Foreign
Affairs from October to December 2011. The Committee on Foreign Affairs identified 24
jackets spanning from November 2005 through March 2008 and an additional 30
jackets from April and July 2011 that the Committee perceived as containing errors. To
test the current billing process, we reviewed 23 jackets billed to the Committee on
Foreign Affairs from October through December 2011. The 23 jackets represented all of
the completed jackets for congressional hearings to the Committee. We also reviewed
pre-press printing billing charges from May 2009 through April 2012.

To gain an understanding of GPO’s policies, procedures, systems, and processes
related to billing practices, we performed walk-throughs of applicable processes with
GPO staff. We interviewed a staff member on the Committee on Foreign Affairs to
understand the process. We also interviewed key management officials responsible for
establishing and monitoring the congressional billing process; and reviewing and
approving congressional billing charges. We reviewed records from the Office of the
Official Journals of Government, the Office of Finance and Administration, and Plant
Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence that provides a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix A.

Results in Brief

While we noted a reduction from 2005 to 2011 in the number of: (1) duplicate billing
charges, (2) errors associated with billing the incorrect congressional committee, and
(3) billing charges based on the number of printed pages instead of the billing rate
associated with posting electronic files online, opportunities exist to enhance controls
over the accuracy of billing charges for congressional products.




                                             2
Of the approximately $3.45 million in billing charges to the CP&B appropriation from FY
2006 through FY 2011 for products requested by the Committee on Foreign Affairs, we
calculate that about 95.4 percent (or approximately $3.29 million) of the charges were
accurate. Conversely, approximately 4.6 percent (or $159,529) of the billing charges
were not accounted for accurately.

From November 2005 through March 2008, the Committee on Foreign Affairs reported
discrepancies with 24 jackets billed in the Congressional Printing Source Report (“GPO
Source Report”1). Of the 24 jackets, our audit revealed 23 billing discrepancies. The 23
accounting errors totaled $145,567. We identified:

    (1) Six instances which totaled $30,744 in overcharges related to duplicate amounts
        reported in the Source Report. GPO subsequently reversed the duplicate
        amounts in April and May 2006.

    (2) Seven instances where the incorrect committee was charged for congressional
        products. The Committee on Foreign Affairs was charged for work requested by
        either the Committee on Government Reform or the Committee on Homeland
        Security resulting in $66,232 in incorrect billing charges. While not having an
        overall impact on the CP&B appropriation, the accounting is inaccurate.

    (3) Nine instances where the incorrect page counts and rates were used; this
        resulted in $9,134 in overcharges.

    (4) One instance GPO overcharged $39,457 based on an incorrect allocation of
        costs between committees in the House and Senate.

For April and July 2011, the Committee on Foreign Affairs reported discrepancies with
30 jackets billed in GPO Source Reports. Our audit confirmed the discrepancies with
the 30 jackets. We determined that 28 jackets were billed an amount based on the
number of printed pages at the annual page rate instead of the flat rate associated with
online electronic postings. This resulted in $13,246 worth of overcharges. We also
identified two jackets with incorrect page counts resulting in $1,690 worth of
overcharges. The combined total was $14,936 in overcharges to the CP&B
appropriation.

Based on a review of current activity from October through December 2011, no
instances existed where the Committee on Foreign Affairs was billed for the same
jacket twice, incorrectly charged the page rate instead of a flat rate, or billing charges for
work associated with another congressional committee. However, eight instances
resulted in a net under charge of $975 as a result of incorrect page counts.

During the course of our audit, GPO notified the Senate Rules and Administration
Committee and the Committee on House Administration pre-press billing charges

1
 GPO Source Reports are monthly reports that identify the individual GPO billings by GPO jacket number
by Congressional Committee.


                                                  3
beginning in May 2009 through May 2012 had not been billed. We confirmed that
approximately $2.2 million worth of pre-press billing charges were not billed during this
period.

While GPO performed various activities involving the accuracy of some billing charges,
the activities did not constitute a systematic process for providing information on the
accuracy and completeness of its billing charges over time. In addition, GPO did not
establish a performance measure for the accuracy level it wanted to achieve in billing
charges. Without such a measure, it is not clear how the error rates found would
compare to error rates GPO might consider acceptable, or if GPO would in fact
determine whether corrective actions must be taken to reduce the error rates to lower
levels.

Without a performance measure and periodic information on the accuracy of its billings,
GPO cannot monitor changes in error rates and related causes over a period of time.
GPO also did not have meaningful performance information available to interested
stakeholders when questions or concerns were raised about the accuracy of charges
billed to the CP&B appropriation for congressional products.

In addition, based on our limited transactions testing of the CP&B appropriation, nothing
came to our attention that would lead us to believe excess funds were drawn down and
inappropriately transferred into the Revolving Fund.

Furthermore, we noted that while GPO has a designated single point-of-contact for
congressional committees to discuss billing matters, it was not always apparent. Since
2005, the Committee on Foreign Affairs contacted various individuals in the Official
Journals of Government and Finance and Administration business units to discuss
billing discrepancies.

Recommendations

We recommend that the Chief Financial Officer (1) establish a performance measure for
billing accuracy, and (2) establish and implement a formal process for periodically
assessing and monitoring the accuracy of billing charges that will ensure controls are
operating as designed and achieving the intended purpose.

We recommend that the Managing Director of Official Journals of Government work with
the Chief Financial Officer to reiterate within GPO and to ensure that each
congressional committee is aware of the single point of contact in GPO with whom they
can discuss billing matters.

Management’s Response

Management concurred with our recommendations. The Chief Financial Officer will
implement a quarterly review procedure in fiscal year 2013 to statistically sample CP&B
billings to determine the accuracy of the charges and establish a guideline to measure


                                            4
performance accuracy; and coordinate with the Managing Director of Official Journals of
Government to identify a GPO single point of contact for billing matters and notify the
appropriate individuals.

Management’s planned actions are responsive to the recommendations. The
recommendations are resolved and will remain open pending completion of the planned
action.




                                           5
Background
GPO produces the daily and permanent editions — in both online and print formats —
of the Congressional Record, bills, resolutions, amendments, hearings, committee
reports, committee prints, documents, stationery, and a wide variety of other products.
This work performed for Congress is funded through the annual appropriation for CP&B.
Individual congressional committees are not directly charged nor do they directly pay for
printing and binding services.

Based on the monthly billing charges to various congressional committees, GPO
prepares a summary report that is transmitted to the U.S. Department of the Treasury
and a journal entry is subsequently made that transfers funds from the CP&B
appropriation to the Revolving Fund.

The Revolving Fund is available without fiscal year limitation and with the exception of
the Office of the Superintendent of Documents’ Salaries and Expenses Appropriation, is
used for expenses necessary for the operation and maintenance of the GPO.

Table 1 depicts the annual CP&B appropriation, total billings against the appropriation,
and the amount billed for the House Committee on Foreign Affairs for FYs 2006 through
2011.

                    Table 1. Congressional Billings (thousands)
                      Fiscal         CP&B           Total   Foreign
                      Year       Appropriations    Billings Affairs
                      2006          $87,209        $90,190   $698
                      2007          $87,954        $95,046   $678
                      2008          $89,775        $83,927   $550
                      2009          $96,828        $80,806   $465
                      2010          $93,768        $89,107   $550
                      2011          $93,580        $79,244   $513
                      Total        $549,114       $518,320 $3,454

While the Office of Finance and Administration is primarily responsible for billings to the
CP&B appropriation, both the Office of Congressional Publishing Services and Plant
Operations play an interdependent role in processing requests, producing products, and
billing charges for services provided to Congress.

Billing Process

The congressional billing process begins in the Office of Congressional Publishing
Services, Office of the Official Journals of Government. A congressional committee
submits its request by way of mail for printing to GPO on GPO Form 262, “Requisition
for Printing.” For hearings, the congressional committee attaches a separate cover
letter to the requisition with the instructions to GPO about the product requested.



                                             6
Print Requisitions. Upon receipt of the requisition for printing, the Office of
Congressional Publishing Services assigns a requisition and jacket number and records
this as well as other job information (for example, product code, Billing Address Code
(BAC) 2 into GPO’s Production Estimating and Planning System (PEPS). 3 Plant
Operations estimates the time and cost to complete the work (such as labor and
materials) and sends a copy of the estimate to the Office of Congressional Publishing
Services along with a work jacket. GPO does not begin work on the jacket until it
receives notification from the committee. When the work is completed, Plant
Operations closes out the jacket in PEPS and sends the work jacket to the Office of
Finance and Administration for billing. The Office of Finance and Administration creates
a list of completed jobs (closed jackets) and sends it to the Office of Congressional
Publishing Services, which pulls the billing jackets and sends that list to the Office of
Finance and Administration for processing by a Financial Information Analyst in the
Plant Billing Branch.

To arrive at the total number of pages to be billed for hearings, the Financial Information
Analyst matches the billing and working jacket numbers, and reviews the printed
product by counting all of the pages in the document, less blank ones. The Analyst
retrieves the jacket/project in the financial accounting system; verifies the information in
the financial accounting system to the jacket; and retrieves the labor costs, if any, from
the financial accounting system. Using an Excel spreadsheet, the Financial calculates
the total costs to be billed using the number of billable pages and that fiscal year’s rate
per page. The Analyst enters the number of billable pages, BAC code, number of
copies, product code 83 (Hearing), and billable costs into the financial accounting
system and reconciles the entries to the Excel spreadsheet before saving the file. A
copy of the information is stored with the other supporting documentation.

Pre-press printing costs for congressional envelopes and letterhead are accumulated in
individual project jackets (subsidiary jackets). To reduce the number of monthly
invoices submitted for payment, GPO summarizes the monthly costs for all of the
subsidiary jackets into lead (“no cost”) jackets and bills congress from the lead jackets.

The Chief of Plant Billing in the Office of Finance and Administration, or designee,
reviews and approves the Analysts’ work. Approved bills are uploaded into accounts
receivable where the bills are processed in General Accounting within the Office of
Finance and Administration.

One accountant accumulates and summarizes the invoice costs, submits a monthly
summary to the Disbursing Section in the Office of Finance and Administration, to report
to the U.S. Department of the Treasury the total amount of CP&B disbursements by way
of a Standard Form (SF) 1219, “Statement of Accountability.” Another accountant


2
  BAC is a GPO-generated number that is assigned to customer agencies to identify one customer from
another in GPO’s systems.
3
  PEPS, a mainframe application, is the primary planning and management system for the GPO Plant.
Jobs worked on the plant floor are established within PEPS and tracked until passed to Oracle for billing.


                                                    7
records the monthly journal entry to transfer funds from the CP&B account to GPO’s
Revolving Fund.

Hearings Posted Online. A congressional committee may request that its hearings be
posted online and not printed. If that is the case, GPO follows the same billing
procedures, but does not request an estimated cost from Plant Operations because the
job will be billed at a flat rate per file. When the committee sends hard copy documents
or files requiring manipulation to GPO, additional processing is necessary to prepare it
for posting online and the flat rate does not apply.4

GPO Pricing. We were told that at least annually, the Rates and Investigations Branch
within the Office of Finance and Administration, develops billing rates for GPO products
and services.

GPO charges a per-page rate to print congressional hearings. GPO does not charge its
customers for blank pages. Online postings are charged at a flat rate per file only when
the customer submits a .pdf of the document to GPO. When the congressional
committee requests printed copies and an online posting, GPO charges the page rate to
cover both services.

In some instances, publication costs are shared by the Senate and the House. The cost
is based on an agreement.

Table 2 illustrates the FY 2006 through 2011 page and flat billing rates GPO established
for documents submitted electronically:

                                     Table 2. Billing Rates
                                                    Per        Online
                                       FY          Page        Posting
                                     2006           $61          N/A
                                     2007           $63          N/A
                                     2008*          $55          $99
                                     2008**         $58          $99
                                     2009           $60          $99
                                     2010           $62          $99
                                     2011           $65         $138

                                  *These rates are effective from October 2007
                                  through January 2008.

                                  ** These rates are effective from February to
                                  September 2008.




4
    None of the congressional hearings jackets included these additional fees.


                                                      8
Reporting Expenses. The Office of Finance and Administration creates the GPO
Source Report 5 and sends it to the Office of Congressional Publishing Services for
distribution to the individual committees.

The Office of Finance and Administration considers this activity to be a key control in
the review of charges paid from the CP&B appropriation. Officials believe based on the
feedback from the House Committee on Foreign Affairs, this control is effective.




5
 The Source Report lists by BAC, the billing date, class (product code), product title, number of copies,
and billed amount for each individual jacket and corresponding requisition number.


                                                     9
Results and Recommendations

Opportunities exist to enhance controls over the accuracy of billing charges for
congressional products. Of the approximately $3.45 million in billing charges to the
CP&B appropriation from FY 2006 through FY 2011 for products requested by the
Committee on Foreign Affairs, we calculate that about 95.4 percent (or approximately
$3.29 million) of the charges were accurate. Conversely, approximately 4.6 percent (or
$159,529) of the billing charges were not accounted for accurately.

We also noted that GPO’s did not bill approximately $2.2 million worth of pre-press
charges for envelopes and letterhead from May 2009 through May 2012 to the Senate
and House. This oversight was discovered by the Office of Finance and Administration
during the course of our audit.

Because GPO did not establish acceptable or tolerable error rates for billing charges,
the extent to which the error rates we observed would compare to levels of performance
that GPO would consider acceptable was unclear. With that information, GPO would be
able to make informed decisions concerning the rates and causes of erroneous billing
charges, including whether any actions are needed to lower its overall error rate.

In addition, based on our limited transactions testing of the CP&B appropriation, nothing
came to our attention that would lead us to believe excess funds were drawn down and
inappropriately transferred into the Revolving Fund.

We also noted that while GPO has a designated single point-of-contact for
congressional committees to discuss billing matters, it was not always apparent.

Program Policies and Procedures

Chapter 7, Section 1107 title 44, United States Code, “Congressional Printing and
Binding,” states that the CP&B must be charged for the cost of printing a document or
report ordered by Congress that cannot be properly charged to an appropriation for an
executive department, independent agency or Government establishment. CP&B is the
congressional appropriation that covers the estimated costs of its own printing and used
only to reimburse GPO for expenditures related to congressional printing.

GPO Instruction 825.18A, “Internal Control Program,” May 28, 1997, requires that GPO
maintain effective systems of accounting and management control. Management must
establish and maintain an effective internal control structure, which includes policies and
procedures pertaining to an entity’s ability to record, process, summarize, and report
financial data consistent with the assertions within either annual financial statements or
interim financial statements, or both. Department, service, staff, and office heads must
regularly monitor compliance with and effectiveness of internal controls programs,
functions, and activities to prevent or deter the loss or abuse of public assets. As part of
their duties, supervisors must know about internal controls within their units and ensure




                                            10
that the controls are operating as designed and are achieving their intended purpose.
Standard 7 of GPO Instruction 825.18A states that:

        Transactions should be promptly recorded, properly classified, and accounted
        for in order to prepare timely accounts and reliable financial and other reports.
        The documentation for transactions, management controls, and other
        significant events must be clear and readily available for examination.

GPO “Procedure to Bill for House and Senate Letterhead, Envelopes & Misc Products,”
dated September 8, 2010, identifies jacket number, product code, and product
description for the individual House and Senate letterhead, envelopes, and
miscellaneous products requisitioned. The procedure explains that, with the exception
of the four jackets below, none of the jackets identified in the procedure should have
costs directly billed to them from GPO’s Productivity Reporting for Operations,
Budgeting, and Expenditures (PROBE)6 system. These jackets are directly charged for
pre-press Division7 costs based on hourly labor rates.

        9146: Clerk of the House (Envelopes)
        9147: Clerk of the House (Letterhead)
        9148: Secretary of the Senate (Envelopes)
        9149: Secretary of the Senate (Letterhead)

As a legislative branch agency, GPO is not required to follow any Office of Management
and Budget (OMB) circulars, including OMB Circular Number A-123 “Management’s
Responsibility for Internal Control,” December 21, 2004, or its appendices. OMB
Circular Number A-123 requires that management controls provide reasonable
assurance that assets are safeguarded against waste, loss, unauthorized use, and
misappropriation. Management controls developed for agency programs must be
logical, applicable, reasonably complete, and effective and efficient in accomplishing
management objectives.

The Government Accountability Office’s (GAO’s) “Standards for Internal Control in the
Federal Government,” November 1999, describes internal control as a control built into
an entity as part of its infrastructure designed to help managers operate the entity and
achieve objectives on an ongoing basis. It is a major part of managing an organization
and comprises plans, methods, and procedures used for meeting missions, goals, and
objectives. Internal controls also serve as the first line of defense for safeguarding
assets and preventing and detecting errors and fraud. As programs change and
agencies strive to improve operational processes and implement new technological
developments, management must continually assess and evaluate its internal control to
ensure that the control activities are effective and updated when necessary. In other
words, internal controls help Government managers achieve desired results through
effective stewardship of public resources.

6
  The PROBE system captures the daily labor, machine, leave, and platemaking transactions for
employees working in the plant. The data flows into the cost accounting and payroll systems.
7
  The Electronic Job and Proof & Copy Markup Division represent most of the pre-press costs in this audit.


                                                   11
Billing Charges from November 2005 through March 2008

The House Committee on Foreign Affairs notified GPO that from August 22, 2006,
through September 4, 2008, that they believed billing discrepancies existed in 24
jackets that were billed in GPO Source Reports from November 2005 to March 2008.
We concluded that GPO initially overbilled $145,567 for the period because GPO billed
the same jackets twice; charged the appropriation for work the Committee on Foreign
Affairs did not request; billed the incorrect number of pages and used the incorrect
billing rate; and did not correctly allocate joint costs between the House and Senate.
GPO credited the Committee on Foreign Affairs $75,648 of the $145,567 for the
overbillings. See Appendix B for a list of all the jackets reviewed.

Duplicate Billings. We reviewed six instances where the GPO Source Report led the
report user to conclude that the CP&B appropriation had been double billed for the
same jackets in the amount of $30,744. Based on a review of jacket numbers 020-647,
020-648, 020-784, 021-977, 022-658, and 023-695, the CP&B appropriation was initially
billed twice, but was credited the same day. The GPO Source Report did not show that
GPO had corrected the charges.

GPO changed from a mainframe financial accounting system to a new financial
accounting system in 2009. The mainframe system did not have sufficient internal
controls to prevent duplicate billings, resulting in the billing discrepancies the Committee
on Foreign Affairs identified.

If there is an attempt to bill the jacket twice, the system notifies the user that a jacket
already exists. When a modification is necessary (such as applying a credit), the
financial accounting system displays the historical billing information for the jacket,
allowing the user to view previous modifications, including the original bill. Unlike the
mainframe, the user would have to intentionally bill a jacket twice in the current financial
accounting system.

                           Table 3. Duplicate Billing

                            Jacket         Billed
                             No.         Amount       Overbilled
                           020-647       $16,592       ($8,296)
                           020-648       $13,176       ($6,588)
                           020-784        $6,832       ($3,416)
                           021-977        $7,808       ($3,904)
                           022-658        $9,272       ($4,636)
                           023-695        $7,808       ($3,904)
                             Total       $61,488        ($30,744)

Billing Address Code. In four instances the GPO Source Report showed that the
Committee on Foreign Affairs was billed $66,232 for work that the Committee on
Government Reform requested. We reviewed the original Committee on Foreign Affairs


                                             12
requisition for each jacket and noted that because of a transposition error of the BAC,
the House Committee on Foreign Affairs (BAC 111000) was incorrectly charged for
work requested by the House Committee on Government Reform (BAC 111100). GPO
credited BAC 111000 on August 25, 2006, for all four jackets identified in Table 4.

                           Table 4. Incorrect BAC

                                          Billed
                         Jacket No.     Amount      Overbilled
                          023-038       $25,132     ($25,132)
                          024-087        $3,416      ($3,416)
                          026-073       $10,988     ($10,988)
                          037-063        $3,640       ($3,640)
                         Total          $43,176      ($43,176)

Table 5 identifies jackets billed to BAC 111000 in FY 2006, but based on a review of the
original requisition, should have been billed to either the House Committee on
Government Reform (BAC 111100) or the House Committee on Homeland Security
(BAC 113400). GPO agreed that the costs were incorrectly charged to BAC 111000,
but as of June 28, 2012, has not credited jacket numbers 025-530 and 026-074 for the
amounts billed. GPO originally charged $11,232 to jacket number 025-616 on August
18, 2006 for BAC 111000. On December 20, 2006, GPO credited the jacket $4,264,
leaving a balance of $6,968. As of June 28, 2012, the remaining charges for this jacket
have not been assigned to the correct BAC.

                           Table 5. Jackets Not Credited for
                                    Incorrect BAC Billed

                                          Billed
                         Jacket No.     Amount       Overbilled
                          025-530        $5,368      ($5,368)
                          025-616        $6,968       ($6,968)
                          026-074       $10,720      ($10,720)
                         Total          $23,056       ($23,056)

An official of the Committee on Foreign Affairs stated that one possible reason for some
of the errors is that GPO’s accounting system shows “Committee on International
Relations” for BAC 111000 rather than its current title, “Committee on Foreign Affairs,”
making it difficult for employees to search its records using the Committee’s proper
name. GPO officials did not confirm this belief.

Page Counts and Billing Rates. We identified nine instances of incorrect page counts
and rates used resulting in $9,134 in overcharges. GPO billed all of the jackets in Table
6 based on the number of printed pages and the applicable billing rate per page for that
year. We verified that the Committee on Foreign Affairs requested the work for all of


                                           13
these jackets; obtained the printed document for each jacket online at GPO’s Federal
Digital System (FDsys)8 Website and counted the number of printed pages, less blanks,
to arrive at the number of billable pages; and verified the annual billing page rate. The
results are summarized below and explained in the referenced note. As of June 28,
2012, the $9,134 had not been credited.

               Table 6.        Incorrect Number of Pages/ Billing Rate
                                  Billed         (Over)/Under          Page
                Jacket No.       Amount             Billed            Variance Notes
                 021-398          $5,368             $(61)                1     A
                 024-599         $11,895          $(8,296)              136     B
                 035-034          $3,780             $(63)                1     A
                 035-120          $3,843               $63                1     A
                 035-431          $3,843            $(126)                2     A
                 036-724          $8,700               $58                1     A
                 038-141          $5,720            $(825)                0     C
                 038-939          $7,888               $58                1     A
                 039-711          $3,306               $58                1     A
                   Total         $54,343            $(9,134)

        Note A (Jacket Numbers 021-398, 035-034, 035-120, 035-431, 036-724,
        038-939, and 039-711). All of the (over)/under billing amounts resulted from a
        difference in the total number of billable pages.

        Note B (Jacket Number 024-599). GPO inaccurately billed for work attributable
        to the Committee on Foreign Affairs for 195 printed pages, which is not
        supported by either the GPO production documentation or the document posted
        online. GPO agrees that the Committee on Foreign Affairs should have been
        billed for 59 printed pages at $61 per page.

        Note C (Jacket Number 038-141). In an email to GPO on May 13, 2008, the
        Committee on Foreign Affairs explained that this Jacket Number was billed
        $11,440. However, the GPO billing documents support a billing of $5,720 (88
        pages at $65 per page). We verified that the billing rate for that year was $55 per
        page and the total number of billable pages was 89 (89 pages at $55 per page
        equals $4,895), resulting an overbilling of $825.

GPO managers explained that the incorrect page counts are due to human error.

Allocation of Costs. In one instance, GPO overbilled the House Committee on Foreign
Affairs based on an incorrect allocation of costs. Occasionally, the House and Senate
Committee share the cost of printing the same document. The jacket was a joint
product shared between the Senate and House Committees on Foreign Affairs; the cost

8
 FDsys is GPO’s free online access to official information and publications from each branch of the
Federal Government.


                                                   14
of printing was to be split between BAC 111000 (House Foreign Affairs) and BAC
115200 (Senate Foreign Affairs) based on the number of copies ordered. The CP&B
appropriation was unaffected.

The Committee on Foreign Affairs questioned a possible triple billing of this jacket for
$2,167 on August 1, 2006, $31,582 on September 14, 2006, and $26,359 on June 18,
2008. We analyzed the billing documents with GPO and found that the first bill ($6,501)
was correctly split between the two BACs: $2,167 to 111000 and $4,334 to 115200.
However, the second ($31,582) and third ($26,359) bills were charged only to the
House. Our analysis also identified a fourth bill of $25,993 from June 6, 2006.

The House ordered 50 copies (33.3 percent) of the document and the Senate, 100
copies (66.7 percent). The House was originally charged $60,108 ($2,167 + $31,582 +
$26,359), but should have been charged $20,651, resulting in an overbilling of $39,457
as shown below.

                           Table 7. Calculation of Billing
                                     Jacket Number 026-464
                           June 6, 2006 Costs              $25,992
                           September 14, 2006 Costs         31,582
                           June 23, 2006 Costs              26,359
                           Total Jacket Cost               $83,933
                           Less: Rider9 Costs               21,916
                           Total Costs                     $62,016
                           House Share %                    33.3%
                           House Costs                     $20,651


                           Original Amount Billed                  $60,108
                           Adjusted House Costs                     20,651
                           Difference                            ($39,457)

GPO managers told us that to credit the House account at this point in time was
unnecessary because of the age of the transaction and that both the House and
Senate’s costs were charged to the same appropriation (CP&B) thereby canceling out
any potential impact on the appropriation.




9
  The appropriate House or Senate Committee sends GPO an original requisition to print its document.
Other agencies and Committees can “ride” the original requisition and separately request its own copies
of the document. The Committee is charged the set up and production costs while the rider requests are
charged at a lower billing rate.



                                                  15
Billing Charges from April and July 2011

The Committee on Foreign Affairs notified GPO that it believed billing discrepancies
existed in 30 jackets billed in April and July 2011. Our audit confirmed that GPO initially
overbilled the Committee on Foreign Affairs for that period because rather than a flat
rate or billing an incorrect number of pages, GPO inaccurately billed the jackets based
on the page rate. However, GPO credited the Committee on Foreign Affairs for the
incorrect billing charges. See Appendix C for a list of jackets reviewed.

Page Counts and Billing Rates. We determined that 28 jackets were billed an amount
based on the number of printed pages at the annual page rate rather than the rate
associated with online electronic postings. That transaction resulted in $13,246 worth of
overcharges.

The Committee on Foreign Affairs requisitions instructed that GPO place the documents
online and provided the electronic files for posting. The billing jackets included
instructions for posting the documents online but did not include a count for the number
of printed pages to bill at the page rate. GPO managers explained that when a
customer requests an online posting and provides the document electronically, the
Agency charges a flat fee per file.

Our audit disclosed that the error occurred because of incomplete GPO procedures
regarding billing codes. Before January 12, 2012, the Financial Information Analyst only
billed jackets at the flat rate when the financial systems billing expenditure screen for
the jacket showed “Platemaking10” or code “28.12. 11” The Analyst was not aware until
January 12, 2012, that if “Platemaking,” “28.12,” or both appeared together on the
expenditure screen, that the jacket would be billed at a flat rate.

On September 13, 2011, GPO credited Jackets Numbers 64-837, 65-927, and 95-930.
On March 30, 2012, GPO credited the rest of the jackets for the original amount billed
and on the same date re-billed $138 per jacket, resulting in the overbilled amounts in
Table 8 and again in Appendix C.

                     Table 8.         Jackets Billed at a Page
                                      Rate
                       Jacket        GPO Billed         (Over)/Under
                        No.           Amount               Billing
                       62-543          $229.01                $(91.01)
                       62-544          $255.30              $(117.30)
                       62-546          $394.21              $(256.21)
                       62-547          $548.14              $(410.14)
                       64-835          $176.46                $(38.46)
                       64-837          $525.61              $(387.61)

10
   Platemaking is the process of transferring the electronic file from email to FDsys.
11
   Code 28.12 accumulates the cost of reviewing the electronic file sent by the Committee to make sure its
format is acceptable for online posting to FDsys.


                                                   16
                  Table 8.         Jackets Billed at a Page
                                   Rate
                   Jacket         GPO Billed         (Over)/Under
                    No.            Amount               Billing
                   64-840           $311.61              $(173.61)
                   64-841           $322.88              $(184.88)
                   64-842           $180.21                $(42.21)
                   64-843           $326.63              $(188.63)
                   65-927          $1,600.83           $(1,462.83)
                   65-930             $22.23               $115.77
                   66-653           $510.60              $(372.60)
                   66-654           $259.05              $(121.05)
                   66-655          $1,367.14           $(1,229.14)
                   66-656           $270.31              $(132.31)
                   66-657           $251.55              $(113.55)
                   66-658          $3,604.18           $(3,466.18)
                   66-659           $503.08              $(365.08)
                   66-660           $244.04              $(106.04)
                   66-661          $3,334.14           $(3,196.14)
                   66-662           $503.08              $(365.08)
                   66-663           $236.52                $(98.52)
                   66-664           $240.27              $(102.27)
                   66-665           $315.36              $(177.36)
                   66-666           $210.25                $(72.25)
                   66-668           $172.71                $(34.71)
                   66-669           $195.22                $(57.22)
                       Total       $17,110.62         ($13,246.62)

Number of Pages. We identified two jackets with incorrect page counts resulting in
$1,690 worth of overcharges. On March 30, 2012, GPO credited both jackets for the
original amount billed in July 2011 and re-charged them for the amounts identified by
the Committee on Foreign Affairs. Our audit determined that the difference in page
count was the result of human error. Table 9 summarizes the results.

             Table 9.          Jackets Billed for the Incorrect Number of
                               Document Pages
              Jacket       GPO Billed                      (Over)/Under
               No.            Amount       OIG Audit          Billing      Note
              65-056        $6,240.00      $5,915.00           $(325.00)    A
              65-798        $3,510.00      $2,145.00         $(1,365.00)    B
               Total           $9,750.00   $8,060.00         $(1,690.00)

      Note A (Jacket Number 65-056). On July 1, 2011, GPO billed $6,240 (96 pages
      x $65 per page) for services requested by the Committee on Foreign Affairs. In
      response to the Committee on Foreign Affairs’ inquiry, on March 30, 2012, GPO


                                                17
credited the appropriation for the amount billed and re-billed $5,980 (92 pages x
$65 per page). We reviewed the document online and identified a blank page
just before the appendix that was included in the GPO billing. As a result, we
concluded that GPO should have billed $5,915 (91 pages x $65 per page),
resulting in an overbilling of $325 between the original bill and the audited
amount as follows:

             Original bill        $6,240
             Revised bill         $5,980
             Difference           $ 260
             Audit Difference     $ 65
             Total Difference     $ 325

Note B (Jacket Number 65-798). On July 18, 2011, GPO billed $3,510 (54 pages
x $65 per page) for services requested by the Committee on Foreign Affairs. In
response to the Committee on Foreign Affairs inquiry, on March 30, 2012, GPO
credited the appropriation and re-billed $2,210 (34 pages x $65 per page). We
reviewed the document online and identified a blank page just before the
appendix that was included in the billing. Therefore, GPO should have billed
$2,145 (33 pages x $65 per page), resulting in an overbilling of $1,365 between
the original bill and the audited amount as follows:

             Original bill        $3,510
             Revised bill         $2,210
             Difference           $1,300
             Audit Difference     $ 65
             Total Difference     $1,365




                                    18
Billing Charges from October through December 2011

We reviewed the October through December 201112 Committee on Foreign Affairs
requisitions totaling $135,290 to determine whether the accuracy of billing charges had
improved. Based on our audit, we believe the accuracy of billing charges for
congressional hearings has improved.

We did note, however, that in eight instances the CP&B appropriation was under
charged $975 because of incorrect page counts. As of June 28, 2012, the billing
charges have not been adjusted. Our audit determined that the difference in page
count was the result of human error. The results summarized below are based on a
page rate of $65 and explained in the referenced notes. See Appendix D for a list of
jackets reviewed.

             Table 10. Jackets Billed with Incorrect Page Counts
              Jacket       GPO Billed           OIG            (Over)/Under         Page
               No.          Amount              Audit             Billing          Variance
              70-584        $4,046.29          $4,176.29           $130               2
              70-663        $4,894.71          $5,024.71           $130               2
              70-666       $16,903.07         $16,838.07           $(65)              1
              70-948        $4,372.61          $4,632.61           $260               4
              70-949        $4,046.29          $4,306.29           $260               4
              71-265        $1,762.10          $2,022.10           $260               4
              71-266        $9,332.58          $9,137.58          $(195)              3
              71-620       $15,402.02         $15,597.02           $195               3
             Total        $135,289.78 $136,264.78                   $975




12
  The audit scope excluded six jackets that were still in production and three jackets that had not yet
been billed as of the end of fieldwork.


                                                    19
Unbilled Charges for Pre-Press Congressional Envelopes and Letterhead

On June 25, 2012, GPO notified Congress that it had not billed for the pre-press costs
of printing envelopes and letterhead from May 2009 through April 2012. The table
below shows the total under-billed costs by FY. See Appendix E for details of the
under-billed costs for the House and Senate by product type and fiscal year.

             Table 11. Total Pre-Press Costs for Congressional Envelopes
                       and Letterhead (May 2009 – April 2012)
             Fiscal Year                 House                Senate                 Total
                 2009               $364,761.90           $136,240.46         $501,002.36
                 2010                691,815.71            172,778.93           864,594.63
                 2011                490,374.22             57,449.20           547,823.42
                 2012                255,843.36             27,751.75           283,595.11
                 Total            $1,785,830.92           $411,184.61        $2,197,015.52

To avoid submitting numerous invoices throughout the month for common products
such as envelopes and letterhead, GPO accumulates the costs from multiple projects
(subsidiary jackets) into “no cost” lead jackets and submits one monthly invoice for each
lead jacket. “No cost” lead jackets are not directly associated with any subsidiary jacket
and normally do not accumulate their own costs. The exceptions are four “no cost” lead
jackets, whose last four digits end with 9146 through 914913, that accumulate pre-press
costs every year.

The errors GPO found were due to various factors, including inadequate review of
billing charges and the Financial Information Analyst mistakenly identified the jackets as
regular “no cost” lead jackets and did not search for pre-press costs.

GPO changed its billing system in 2009. With the old system, GPO was prompted to
search for pre-press billing charges for the four jackets ending in 9146 through 9149.
The new system does not include a prompt.

We believe due to staff turnover, the knowledge of the pre-press costs for these jackets
was not passed on to the current Financial Information Analyst. As a result, the Analyst
mistakenly identified the jackets as regular “no cost” lead jackets and did not search for
pre-press costs.




13
  The last four digits remain the same each year for these jackets but the first two digits change to reflect
the current year.


                                                     20
Transfers to the Revolving Fund

GPO receives funding from two appropriations: (1) the CP&B appropriation, which is
used for in-house printing of congressional activities and (2) the Salaries and Expenses
appropriation, which is used for certain Superintendent of Documents activities. In
addition to these appropriations, GPO has a business-oriented Revolving Fund, which is
used to fund its procured printing, document sales, and other operations. The Revolving
Fund is reimbursed for these costs through payments from customer agencies, sales to
the public, and transfers from the CP&B and S&E appropriations.

At the beginning of each fiscal year, Treasury transfers the CP&B appropriation to GPO.
Every month, GPO transfers the cost of congressional expenses from the appropriation
account to GPO's Revolving Fund. GPO prepares a journal entry based on a summary
of the monthly SF-1081s, "Voucher and Schedule of Withdrawal and Credits." GPO
also reports to Treasury its monthly disbursements from CP&B through submission of
the SF-1219, "Statement of Accountability."

GPO credited the CP&B appropriation in March 2012 for 27 of the 30 jackets
overcharged in April and July 2011. To determine the impact of the overbilling on the
CP&B appropriation, we reconciled the March 2012 SF-1081s to the disbursements
shown on the SF-1219 and supporting documentation.

Based on our limited testing of the CP&B appropriation transactions, nothing came to
our attention that would lead us to believe excess funds were drawn down and
inappropriately transferred into the Revolving Fund.

Multiple GPO Points of Contact

GPO has a designated single point of contact with which Congress may address such
inquiries and should direct all inquiries to that individual to ensure timely and
appropriate responses.

However, during the course of our audit, we noted that since 2005 the Committee on
Foreign Affairs contacted various individuals in the Official Journals of Government and
Finance and Administration business units to discuss billing discrepancies.

Recommendations

1. We recommend that the Chief Financial Officer:

      a.     Establish a performance measure for billing accuracy; and

      b.     Establish and implement a formal process for periodically assessing and
             monitoring the accuracy of billing charges made to the CP&B
             appropriation that will ensure that the controls are operating as designed
             and achieving their intended purpose.


                                           21
Management’s Response.

Concur. The Chief Financial Officer will implement a quarterly review procedure in
fiscal year 2013 to statistically sample CP&B billings to determine the accuracy of the
charges and establish a guideline to measure performance accuracy.

Evaluation of Management’s Response.

Management’s planned actions are responsive to the recommendations. The
recommendations are resolved and will remain open pending completion of the planned
action.

2. We recommend that the Managing Director of Official Journals of Government work
   with the Chief Financial Officer to reiterate within GPO and to ensure that each
   congressional committee is aware of the single point of contact in GPO with whom
   they can discuss billing matters.

Management’s Response.

Concur. The Managing Director of Official Journals of Government and the Chief
Financial Officer will identify a GPO single point of contact for billing matters and notify
the appropriate individuals of the single point of contact.

Evaluation of Management’s Response.

Management’s planned actions are responsive to the recommendations. The
recommendations are resolved and will remain open pending completion of the planned
action.




                                             22
             Appendix A. Objectives, Scope, and Methodology

We performed the audit from March through May 2012 at the GPO Central Office in
Washington, D.C. We conducted the audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence that will provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.

Objectives

This audit was conducted at the request of Committee on House Administration to
answer the question: “Do opportunities exist to enhance controls over the accuracy of
billing charges to the CP&B appropriation for congressional products?”

Scope and Methodology

To accomplish our objectives, we performed the following:

   •   Researched Federal and GPO criteria on congressional billings.
   •   Interviewed the Printing Manager/Web Assistant, Committee on Foreign Affairs
       to understand the billing issues.
   •   Interviewed management officials responsible for establishing and monitoring the
       congressional billing process; as well as reviewing and approving congressional
       bills.
   •   Obtained and analyzed production and billing data from the PEPS planning and
       management system and the financial accounting system.
   •   Tested the accuracy of the billings by reviewing the 24 jackets the Committee on
       Foreign Affairs identified as inaccurately billed between 2005 and 2008 and the
       30 jackets inaccurately billed in April and July 2011.
   •   Tested the accuracy of 23 jackets billed for services requested by the Committee
       on Foreign Affairs from October through December 2011.
   •   Obtained supporting documentation for the under-billed May 2009 through April
       2012 pre-press costs on four jackets.
   •   Calculated the error rate for the jackets in our audit scope whose costs were
       incurred between FY 2006 through FY 2011.




                                            23
             Appendix A. Objectives, Scope, and Methodology

Internal Controls Reviewed

The objectives of our audit were to review and evaluate the management controls
associated with the management of congressional billings. According to GPO
Instruction 825.18A, “The Public Printer has the overall responsibility to ensure that an
effective internal control structure is established and maintained by GPO’s managers for
all programs, functions, and activities.”

We determined that the following internal controls were relevant to our audit objective:

   •   Program Operations – Policies and procedures the GPO management
       implemented to reasonably ensure that congressional printing requisitions are
       properly associated with the appropriate congressional committee account; the
       product requested is properly identified; product costs were calculated
       accurately and charged appropriately.
   •   Reliability of Financial Reporting – Policies and procedures that management
       has implemented to reasonably ensure that valid, accurate and reliable data are
       obtained, maintained, and fairly disclosed in reports (See Computer-Generated
       Data below).
   •   Compliance with Laws and Regulations – Policies and procedures that
       management has implemented to reasonably ensure that the use of
       congressional appropriations is consistent with laws and regulations.

The details of our examination of management controls, the results of our examination,
and noted management control deficiencies are contained in the report narrative.
Implementing the recommendations in this report should improve those management
control deficiencies.

Computer-Generated Data

To achieve the assignment’s objectives we relied on computer-processed data
contained in the financial accounting system. Our review of system controls and the
results of data tests showed an error rate that casts doubt on the data’s validity.
However, when the data are viewed in context with other available evidence, we believe
the opinions, conclusions, and recommendations in this report are valid.




                                            24
Appendix B. Billing Charges for Congressional Hearings
            November 2005 to March 2008


                                                OIG
         Jacket        GPO Billed              Audited        (Over)/Under
          No.           Amount                 Results           Billing
       Duplicate Billings – Credit (Table 3)
         020-647           $16,592                $8,296          $(8,296)
         020-648           $13,176                $6,588          $(6,588)
         020-784            $6,832                $3,416          $(3,416)
         021-977            $7,808                $3,904          $(3,904)
         022-658            $9,272                $4,636          $(4,636)
         023-695            $7,808                $3,904          $(3,904)
        Sub-Total          $61,488               $30,744         $(30,744)
       Incorrect Account Code – Credit (Table 4)
         023-038           $25,132                       $0      $(25,132)
         024-087            $3,416                       $0       $(3,416)
         026-073           $10,988                       $0      $(10,988)
         037-063            $3,640                       $0       $(3,640)
        Sub-Total          $43,176                       $0      $(43,176)
       Incorrect Account Code – No Credit (Table 5)
         025-530            $5,368                       $0       $(5,368)
         025-616            $6,968                       $0       $(6,968)
         026-074           $10,720                       $0      $(10,720)
        Sub-Total          $23,056                       $0      $(23,056)
       Incorrect Billing Rate/Page Count – No Credit (Table 6)
         020-921            $5,795                $5,795                $0
         021-398            $5,368                $5,307             $(61)
         024-599           $11,895                $3,599          $(8,296)
         035-034            $3,780                $3,717             $(63)
         035-120            $3,843                $3,906               $63
         035-431            $3,843                $3,717            $(126)
         036-724            $8,700                $8,758               $58
         038-141            $5,720                $4,895            $(825)
         038-939            $7,888                $7,946               $58
         039-711            $3,306                $3,364               $58
        Sub-Total          $60,138               $51,004          $(9,134)




                                        25
Appendix B. Billing Charges for Congressional Hearings
            November 2005 to March 2008
                                             OIG
         Jacket       GPO Billed            Audited    (Over)/Under
          No.          Amount               Results       Billing
       Incorrect Account Allocation – No Credit
        026-464          $31,582             $20,651      $(10,931)
        026-464          $26,359                  $0      $(26,359)
        026-464           $2,167                  $0       $(2,167)
                         $60,841                  $0      $(39,457)
       Total            $247,966            $102,399     $(145,567)




                                       26
Appendix C. Billing Charges for Congressional Hearings
                  April and July 2011

                                 OIG
  Jacket       GPO Billed     Audited    (Over)/Under
    No.           Amount      Results           Billing
  Jackets That Should Have Been Charged a Flat Rate:
  62-543          $229.01    $138.00          $(91.01)
  62-544          $255.30    $138.00        $(117.30)
  62-546          $394.21    $138.00        $(256.21)
  62-547          $548.14    $138.00        $(410.14)
  64-835          $176.46    $138.00          $(38.46)
  64-837          $525.61    $138.00        $(387.61)
  64-840          $311.61    $138.00        $(173.61)
  64-841          $322.88    $138.00        $(184.88)
  64-842          $180.21    $138.00          $(42.21)
  64-843          $326.63    $138.00        $(188.63)
  65-927        $1,600.83    $138.00      $(1,462.83)
  65-930           $22.23    $138.00          $115.77
  66-653          $510.60    $138.00        $(372.60)
  66-654          $259.05    $138.00        $(121.05)
  66-655        $1,367.14    $138.00      $(1,229.14)
  66-656          $270.31    $138.00        $(132.31)
  66-657          $251.55    $138.00        $(113.55)
  66-658        $3,604.18    $138.00      $(3,466.18)
  66-659          $503.08    $138.00        $(365.08)
  66-660          $244.04    $138.00        $(106.04)
  66-661        $3,334.14    $138.00      $(3,196.14)
  66-662          $503.08    $138.00        $(365.08)
  66-663          $236.52    $138.00          $(98.52)
  66-664          $240.27    $138.00        $(102.27)
  66-665          $315.36    $138.00        $(177.36)
  66-666          $210.25    $138.00          $(72.25)
  66-668          $172.71    $138.00          $(34.71)
  66-669          $195.22    $138.00          $(57.22)
   Total       $17,110.62 $3,864.00      ($13,246.62)




                               27
Appendix C. Billing Charges for Congressional Hearings
                  April and July 2011

                                      OIG
                     GPO Billed      Audited     (Over)/Under
     Jacket No.       Amount         Results        Billing
  Jackets With Incorrect Billable Page Counts:
      65-056               $6,240.00 $5,915.00      $(325.00)
      65-798               $3,510.00 $2,145.00    $(1,365.00)
       Total               $9,750.00 $8,060.00    $(1,690.00)
    Grand Total        $26,860.62 $11,924.00     $(14,936.62)




                              28
Appendix D. Billing Charges for Congressional Hearings
           October through December 2011

                                   OIG
                 GPO Billed       Audited     (Over)/Under
    Jacket No.    Amount          Results        Billing
      70-583       $4,764.18      $4,764.18
      70-584       $4,046.29      $4,176.29       $130.00
      70-663       $4,894.71      $5,024.71       $130.00
      70-664       $4,633.66      $4,633.66
      70-665       $4,894.71      $4,894.71
      70-666      $16,903.07     $16,838.07       $(65.00)
      70-667       $5,547.34      $5,547.34
      70-947       $3,785.24      $3,785.24
      70-948       $4,372.61      $4,632.61       $260.00
      70-949       $4,046.29      $4,306.29       $260.00
      70-950       $4,829.45      $4,829.45
      70-951       $4,437.87      $4,437.87
      71-037       $6,722.07      $6,722.07
      71-038       $6,134.70      $6,134.70
      71-039       $4,307.34      $4,307.34
      71-262       $2,545.25      $2,545.25
      71-263       $8,092.59      $8,092.59
      71-265       $1,762.10      $2,022.10       $260.00
      71-266       $9,332.58      $9,137.58      $(195.00)
      71-398       $6,069.44      $6,069.44
      71-399       $1,892.62      $1,892.62
      71-620      $15,402.02     $15,597.02       $195.00
      71-621       $5,873.65      $5,873.65
   Total         $135,289.78    $136,264.78       $975.00




                           29
Appendix E. Unbilled Charges for Pre-Press Printing
             May 2009 Through April 2012

                                    Envelope
Fiscal Year          House             Senate            Total
2009            $197,090.73         $36,559.36    $251,523.06
2010             387,974.92          59,274.39      447,249.30
2011             364,781.81          18,669.91      383,451.72
2012             200,344.12          12,068.42      212,412.54
Total         $1,150,191.58        $126,572.07   $1,294,636.62


                                   Letterhead
Fiscal Year         House              Senate           Total
2009           $167,671.17          $99,681.10    $249,479.30
2010            303,840.79          113,504.54     417,345.33
2011            125,592.41           38,779.29     164,371.70
2012             55,599.24           15,683.33      71,182.57
Total          $652,603.61         $267,648.26    $902,378.90


                                      Total
Fiscal Year          House             Senate            Total
2009            $364,761.90        $136,240.46    $501,002.36
2010             691,815.71         172,778.93      864,594.63
2011             490,374.22          57,449.20      547,823.42
2012             255,843.36          27,751.75      283,595.11
Total         $1,802,795.18        $394,220.33   $2,197,015.52




                              30
        Appendix F. Acronyms Used in the Report

BAC     Billing Address Code
CFO     Chief Financial Officer
FDsys   Federal Digital System
FY      Fiscal Year
GPO     Government Printing Office
OIG     Office of Inspector General
OMB     Office of Management and Budget
PEPS    Production Estimating and Planning System
SF      Standard Form




                                31
                  Appendix G. Management’s Response

                                                UNITED STATES GOVERNMENT PRINTING OFFICE




   DATE:    September 10, 2012
                                                        memorandum
REPLY TO
ATTN OF:     Chief Financial Officer

SUBJECT:    Comments on Draft Audit Report: "Operational Enhancements Could Further
            Improve the Congressional Billing Process"

     TO:   Inspector General
     Attn: Mr. Michael Raponi

     This memo responds to your request for comments on the draft audit report titled,
     "Operational Enhancements Could Further Improve the Congressional Billing Process".

     The draft report contains two audit recommendations:

     1. Recommendation: We recommend that the Chief Financial Officer:

              • Establish a performance measure for billing
              accuracy; and
                  • Establish and implement a formal process for periodically assessing
                  and monitoring the accuracy of billing charges made to the CP&B
                  appropriation that will ensure that the controls are operating as designed
                  and achieving their intended purpose.

     Status: We agree with this recommendation. During Fiscal2013, Finance will
     implement a quarterly review procedure to statistically sample CP&B billings to
     determine the accuracy of the charges. We can then research and correct any systemic
     issues that might have arisen. Also, as a result of this process, we will be able to
     establish a statistical accuracy measure to be used as a performance guideline.

           2. Recommendation: We recommend that the Managing Director of Official
           Journals of Government work with the Chief Financial Officer to reiterate within
           GPO and to ensure that each congressional committee is aware of the single point
           of contact in GPO with whom they can discuss billing matters.

     Status: We agree with this recommendation. The Managing Director of Officials Journals
     of Government and the Chief Financial Officer will meet and agree to the single point of
     contact within the GPO for billing matters. Appropriate communication will be issued to
     the relevant individuals communicating the single point of contact.

     Thank you for the professionalism extended by your staff during this audit, as well
     as the opportunity to comment on the draft report.




     STEVEN T. SHEDD


                                               32
                Appendix H. Status of Recommendations

Recommendation No.           Resolved        Unresolved   Open/ECD* Closed
       1.a.                       X
       1.b.                       X
        2                         X
*Estimated Completion Date




                                        33
                     Appendix I. Report Distribution

Acting Public Printer
Assistant Public Printer, Operations
General Counsel
Chief Communications Officer




                                       34
Major Contributors to the Report
Vera J. Garrant, Lead Auditor




                                35
